OFFICE OF AUDIT
REGION 5
   ‘
CHICAGO, IL




               Mortgage Now Inc., Shrewsbury, NJ

      FHA Loan Underwriting and Quality Control




2012-CH-1014                                SEPTEMBER 28, 2012
                                                        Issue Date: September 28, 2012

                                                        Audit Report Number: 2012-CH-1014




TO: Charles S. Coulter, Deputy Assistant Secretary for Single Family Housing, HU



FROM: Kelly Anderson, Regional Inspector General for Audit, 5AGA


SUBJECT: Mortgage Now Inc. Did Not Always Comply With HUD’s Underwriting and
           Quality Control Requirements


    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), results of the audit of Mortgage Now’s underwriting of Federal
Housing Administration loans in Region 5.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(312) 353-7832.
                                               September 28, 2012
                                               Mortgage Now Inc. Did Not Always Comply With HUD’s
                                               Underwriting and Quality Control Requirements




Highlights
Audit Report 2012-CH-1014


    What We Audited and Why                     What We Found

We audited Mortgage Now Inc., a                Mortgage Now did not comply with HUD’s
Federal Housing Administration (FHA)-          regulations, procedures, and instructions in the
approved nonsupervised direct                  underwriting of 5 of 20 FHA-insured loans reviewed.
endorsement lender approved to                 This noncompliance occurred because Mortgage
originate, underwrite, and submit              Now’s underwriters did not exercise due diligence in
mortgages for insurance. We selected           underwriting these loans. As a result of the improperly
Mortgage Now based on its compare              underwritten loans, Mortgage Now increased the risk
ratio of 223 percent for a 2-year FHA          to the FHA Mutual Mortgage Insurance Fund by
performance period. 1 Its average              $555,678.
compare ratio for the loans originated in
our jurisdiction 2 was 287 percent. The        Additionally, Mortgage Now did not follow HUD
audit was part of the activities in our        requirements when implementing its quality control
fiscal year 2012 audit plan. Our audit         program. Specifically, it did not ensure that its routine
objective was to determine whether             quality control reviews of FHA-insured loans were
Mortgage Now complied with HUD’s               performed frequently and in a timely manner as
regulations, procedures, and instructions      required by HUD, and its written quality control plan
in the underwriting of FHA loans and           did not contain all of the required provisions. The
implementing its quality control plan.         problems occurred because Mortgage Now disregarded
                                               HUD requirements and did not properly oversee its
                                               quality control contractor’s reviews to ensure that they
    What We Recommend
                                               met HUD requirements. As a result, Mortgage Now
                                               increased the risk to FHA’s insurance fund due to a
We recommend that HUD’s Deputy                 lack of assurance of the accuracy, validity, and
Assistant Secretary for Single Family          completeness of its loan underwriting activities.
Housing require Mortgage Now to (1)
indemnify HUD for the five loans cited
in this report, with an estimated loss of
$555,678, and (2) implement a quality
control program that complies with
HUD requirements.


1
 Period ending September 30, 2011
2
 For Illinois, Indiana, Ohio, Michigan, and
Minnesota only. The lender did not originate
any loans in Wisconsin during the selected
performance period.
                            TABLE OF CONTENTS

Background and Objective                                                           3

Results of Audit
      Finding 1: Mortgage Now Did Not Comply With HUD’s Underwriting
               Requirements                                                        4

      Finding 2: Mortgage Now Did Not Follow HUD Requirements When Implementing
               Its Quality Control Program                                         7

Scope and Methodology                                                             11

Internal Controls                                                                 12

Appendixes
   A. Schedule of Funds To Be Put to Better Use                                   14
   B. Auditee Comments and OIG’s Evaluation                                       15
   C. Case Narratives                                                             24




                                            2
                           BACKGROUND AND OBJECTIVE

The National Housing Act, as amended, established the Federal Housing Administration (FHA),
an organizational unit within the U.S. Department of Housing and Urban Development (HUD).
FHA provides insurance to private lenders against loss on buyers financing homes. The basic
home mortgage insurance program is authorized under Title II, section 203(b), of the National
Housing Act and governed by regulations in 24 CFR (Code of Federal Regulations) Part 203. In
1983, HUD implemented the direct endorsement program, which authorizes approved lenders to
underwrite FHA loans without HUD’s prior review and approval.

Mortgage Now Inc. is an FHA-approved nonsupervised direct endorsement lender that was
established in 1994 and approved by FHA on September 25, 1997, to originate mortgage loans.
On November 24, 1997, Mortgage Now became an unconditional direct endorsement lender. It
maintains two offices, with its home office located in Shrewsbury, NJ, and a branch office
located in Willow Grove, PA. While a majority of its loans are FHA insured, Mortgage Now
also originates U.S. Department of Veterans Affairs and conventional loans.

Initially, Mortgage Now’s home office was located in Cleveland, OH, falling under Region V’s
jurisdiction. 3 However, at the start of our audit, the lender was in the process of transferring all
of its operations from the Cleveland office to Shrewsbury, NJ, and as of February 2012, it had
updated its home office in HUD’s systems to Shrewsbury, NJ. Based upon our risk assessment
of single-family lenders with home offices in our region and the performance of Mortgage
Now’s loans originated in our region, an audit was initiated.

According to HUD’s Neighborhood Watch Early Warning System 4, as of November 9, 2011,
Mortgage Now had originated 1,265 FHA-insured loans with beginning amortization dates
between October 1, 2009, and September 30, 2011. Of the 1,265 loans, 53 were seriously
delinquent or had claim insurance status. In addition, Mortgage Now had a compare ratio 5 of
223 percent for the 2-year FHA performance period ending September 30, 2011, and a 287
percent compare ratio for loans originated in Region 5 during the same period.

Our audit objective was to determine whether Mortgage Now complied with HUD’s regulations,
procedures, and instructions in the underwriting of FHA loans and implementing its quality
control plan.




3
  The six states in Region V’s jurisdiction include Illinois, Michigan, Minnesota, Ohio, Wisconsin, and Indiana.
4
  Neighborhood Watch is a Web-based software application that displays loan performance data for lenders and
appraisers using FHA-insured single-family loan information. The system is designed to highlight exceptions so
that potential problems are readily identifiable.
5
  Compare ratio is the value that reveals the largest discrepancies between the subject’s default percentage and the
default percentage to which it is being compared. The percentages being compared are the percentages of
originations that first defaulted during a selected period; for example, defaults within the first two years. A higher
ratio is indicative of an area or lender that has an unusually high default percentage in comparison with that region
or lender’s surrounding area.

                                                           3
                                     RESULTS OF AUDIT
Finding 1: Mortgage Now Did Not Comply With HUD’s Underwriting
Requirements
Mortgage Now did not comply with HUD’s underwriting requirements for 5 of 20 loans
reviewed. Specifically, it did not properly analyze or support borrowers’ income and include all
required recurring obligations to qualify the borrowers for loans. The noncompliance occurred
because Mortgage Now’s underwriters did not exercise due diligence in underwriting these
loans. As a result of the improperly underwritten loans, Mortgage Now increased the risk to
FHA’s Mutual Mortgage Insurance Fund by $555,678. 6


    Mortgage Now Did Not
    Properly Analyze or Support
    Borrowers’ Income

                 Mortgage Now did not properly analyze or support borrowers’ income for four
                 loans reviewed. HUD requires a lender to analyze a borrower’s income and the
                 probability of continued employment to determine the borrower’s capacity to
                 repay the mortgage debt. 7 Additionally, income may not be used in calculating a
                 borrower’s income ratios if it is unverifiable, unstable, or will not continue. 8 For
                 example, for FHA case number 412-6321767, Mortgage Now incorrectly used the
                 primary borrower's income, which was seasonal, not full-time as indicated, to
                 qualify the borrower for the loan. The loan file did not contain sufficient
                 documentation to support the borrower’s income of $1,820. Using the year-to-
                 date earnings on the borrower’s most recent pay stub, we recalculated the
                 borrower’s income as $1,326, a difference of $494, which increased the total
                 fixed payment-to-income ratio 9 from 54 to 63 percent.

    Mortgage Now Did Not Include
    All Required Recurring Debts
    in Its Underwriting Analysis



6
  We classified $555,678 as funds to be put to better use. This amount is 66 percent of the $841,936 in unpaid
principal balances pulled from HUD’s Neighborhood Watch system for the five loans as of July 25, 2012. The 66
percent is the estimated percentage of loss HUD would incur when the FHA property is foreclosed upon and resold
as supported by the HUD Single Family Acquired Asset Management System’s case management profit and loss by
acquisition as of December 2011.
7
  HUD Handbook 4155.1, paragraphs 1.A.4.a; 4.D.1.c; and 4.D.2.a
8
  HUD Handbook 4155.1, paragraph 4.D.1.a
9
  Total fixed payment-to-income ratio is the relationship of total obligations to income, which is determined by
dividing a borrower’s total mortgage payment and monthly recurring obligations by his or her monthly gross
effective income. FHA’s benchmark for this ratio is 43 percent.


                                                       4
                  Mortgage Now did not include all required recurring obligations to qualify the
                  borrowers for two loans. HUD requires a lender, when computing the debt-to-
                  income ratio, to include recurring obligations, such as monthly housing expenses,
                  and additional recurring charges extending 10 months or more, such as payments
                  on installment accounts, child support or separate maintenance payments,
                  revolving accounts, and alimony. 10 For example, for FHA case number 262-
                  1868669, Mortgage Now omitted a monthly installment debt of $598 from the
                  underwriting analysis. The borrowers’ credit report, dated June 29, 2009,
                  contained a monthly installment debt of $598 with a balance owed of $16,932.
                  The Desktop Underwriter findings printout required the lender to provide
                  documentation that supported the omission of a liability account from the
                  underwriting analysis during liability reconciliation. However, the loan file did
                  not contain supporting documentation for the omission of the debt. Considering
                  the omitted monthly liability of $598, the borrowers’ total fixed payment-to-
                  income debt ratio would increase from 42.31 to 48.17 percent.

     Mortgage Now Did Not Exercise
     Due Diligence in Underwriting
     Loans

                  Mortgage Now did not exercise due diligence when underwriting the five loans for
                  FHA insurance to ensure compliance with HUD requirements. According to HUD
                  requirements, a lender must determine that a borrower has the ability and the
                  willingness to repay a mortgage debt, which includes considering the type of
                  income the borrower needs to qualify; analyzing the borrower’s liabilities to
                  determine creditworthiness; and reviewing ratios, including debt-to-income, and
                  compensating factors. 11 Regulations at 24 CFR 203.5(c) require a direct
                  endorsement lender to exercise the same level of care it would exercise in
                  obtaining and verifying information for a loan in which the lender would be
                  entirely dependent on the property as security to protect its investment.

                  Mortgage Now did not establish policies and procedures to ensure its underwriters
                  were accurately and consistently calculating the borrowers’ income. The loan
                  files generally lacked documentation supporting the calculations of the borrowers’
                  income. As of June 29, 2012, the lender stated that it had started implementing
                  procedures that would address the underwriting deficiencies cited. 12 For example,
                  Mortgage Now’s underwriting department will use a separate worksheet to
                  recalculate a borrower’s income, and income will be calculated twice, at a
                  minimum, during the loan underwriting.

     Conclusion

10
   HUD Handbook 4155.1, paragraph 4.C.4.b
11
   HUD Handbook 4155.1, paragraph 1.A.1.c
12
   We did not review the implementation of the lender’s new procedures and thus, are unable to express an opinion
on the effectiveness of those procedures.


                                                        5
          Mortgage Now failed to follow HUD requirements in underwriting 5 of the 20
          loans reviewed (25 percent). This noncompliance occurred because Mortgage
          Now’s underwriters did not exercise due diligence in underwriting the loans. As a
          result, Mortgage Now increased the risk to the FHA insurance fund by $555,678.

          Appendix C of this report contains the case narratives for the five loans with
          material underwriting deficiencies.

Recommendations

          We recommend that HUD’s Deputy Assistant Secretary for Single Family
          Housing require Mortgage Now to

           1A. Indemnify HUD for the five loans with an estimated loss of $555,678.
               The estimated loss was based on the loss severity rate of 66 percent of the
               total unpaid principal balance of $841,936 as of July 25, 2012.

           1B. Develop and implement written policies and procedures to ensure that loans
               comply with HUD requirements and underwriting decisions are properly
               supported.




                                           6
Finding 2: Mortgage Now Did Not Follow HUD Requirements When
Implementing Its Quality Control Program
Mortgage Now did not follow HUD requirements when implementing its quality control
program. Specifically, it did not review all early payment defaults 13 or ensure that its routine
quality control reviews were performed frequently and in a timely manner as required by HUD,
and its quality control contractor did not always perform employment reverification or reverify
occupancy when occupancy was suspect. Further, Mortgage Now’s written quality control plan
did not contain all of the required provisions. The problems occurred because Mortgage Now
disregarded HUD requirements and did not properly oversee its quality control contractor’s
reviews to ensure that they met HUD requirements. As a result, Mortgage Now increased the
risk to the FHA insurance fund due to a lack of assurance of the accuracy, validity, and
completeness of its loan underwriting activities.


     Mortgage Now Did Not Review
     All Early Payment Defaults


                  Mortgage Now did not review all early payment defaults as required by HUD.
                  HUD requires lenders to review all loans going into default within the first six
                  payments, in addition to the loans selected for routine quality control reviews.
                  Early payment defaults are defined as loans that become 60 days past due. 14
                  Mortgage Now’s quality control contractor, QCS & Associates LLC, which was
                  contracted to only perform routine quality control reviews, incidentally reviewed
                  2 of 10 early payment defaults identified by the audit team. Mortgage Now did
                  not provide the requested documentation for the early payment defaults. Further,
                  its quality control contractor explained that it was not in its contract with
                  Mortgage Now to perform the reviews of the early payment defaults and it
                  believed those reviews were being performed by Mortgage Now or another
                  contractor.

     Mortgage Now Failed To
     Perform Routine Quality
     Control Reviews Frequently
     and in a Timely Manner

                  Mortgage Now did not ensure that its routine quality control reviews were
                  performed frequently and in a timely manner as required by HUD. HUD requires
                  that for lenders closing more 15 loans a month, those lenders must conduct quality
                  control reviews at least monthly and address 1 month’s activity. 15 However,

13
   Early payment defaults are loans that become 60 days past due within the first six payments.
14
   HUD Handbook 4060.1, REV-2, paragraph 7-6(D)
15
   HUD Handbook 4060.1, REV-2, paragraph 7-6(B)


                                                         7
                Mortgage Now’s quality control contractor did not perform the reviews monthly
                or review 10 percent of the FHA loans originated as required by HUD.
                According to its quality control contractor’s records, routine quality control
                reviews were not conducted for 17 of the 24 months in our audit period.

                Additionally, Mortgage Now’s quality control contractor did not perform routine
                quality control reviews in a timely manner. HUD requires loans to be reviewed
                within 90 days from the end of the month in which the loan closed. This
                requirement is intended to ensure that problems left undetected before closing are
                identified as early after closing as possible. 16 From October 1, 2009, through
                September 30, 2011, Mortgage Now’s contractor reviewed 118 of 146 loans (81
                percent) after 90 days from the end of the month in which the loans closed, with
                36 of these reviews completed after 6 months, and 8 completed after 9 months.

     Mortgage Now Did Not
     Reverify Employment or
     Occupancy When Required

                Mortgage Now’s quality control contractor did not always perform employment
                reverification or reverify occupancy when occupancy was suspect. HUD requires
                a lender to check documents contained in the loan file for sufficiency and subject
                the loan documents to written reverification, including employment or other
                income. 17 During our audit, Mortgage Now’s contractor acknowledged that it did
                not have a contractual arrangement with Mortgage Now to reverify income as part
                of the quality control reviews. Additionally, there was no indication in the quality
                control summary reports that employment or income reverification was
                performed.

                Further, no evidence was provided that Mortgage Now’s contractor performed
                occupancy reverification, when applicable. HUD requires, in cases in which the
                occupancy of the subject property is suspect that a lender attempt to determine
                whether the borrower is occupying the property. 18 For four quality control
                reviews, Mortgage Now’s quality control contractor questioned the borrowers’
                current residence. However, there was no documentation supporting that
                Mortgage Now or its contractor attempted to reverify the occupancy of the subject
                properties.

     Mortgage Now’s Quality
     Control Plan Did Not Include
     All Required Provisions



16
   HUD Handbook 4060.1, REV-2, paragraph 7-6(A)
17
   HUD Handbook 4060.1, REV-2, paragraph 7-6(E)(2)
18
   HUD Handbook 4060.1, REV-2, paragraph 7-6(E)(4)


                                                     8
           Mortgage Now’s quality control plan did not contain all HUD-required
           provisions. Specifically, contrary to HUD Handbook 4060.1, REV-2, Mortgage
           Now’s plan did not provide that

               •   A lender contracting out any part of its quality control function is
                   responsible for ensuring that the outside source complies with HUD’s
                   requirements. The agreement between these parties must be in writing
                   and state the roles and responsibilities of each party and be available for
                   review by HUD staff.
               •   Loans that are 60 days past due are defined as early payment defaults.
               •   If written verification is not returned, telephone reverification is
                   attempted.
               •   For appraisal desk reviews, if serious deficiencies or patterns are
                   uncovered, lenders must report these items, in writing, to the Quality
                   Assurance Division in the HUD Homeownership Center having
                   jurisdiction.
               •   Lenders must determine whether all corrections have been initialed by the
                   borrower or employees of the lender.
               •   Lenders must determine whether verifications of employment and deposit
                   or credit reports are suspect due to handling by any interested third party
                   or the borrower.
               •   If the borrower is self-employed, the file contains a financial statement.
               •   The quality control program must verify that the lender ensures that none
                   of the participants in a mortgage transaction (excluding the seller of a
                   principal residence) is debarred, suspended, or under a limited denial of
                   participation for the program and jurisdiction. Procedures must exist that
                   determine whether the mortgage applicant is ineligible due to a delinquent
                   Federal debt.
               •   When late endorsements are submitted, the quality control program
                   should verify that the mortgage was current when submitted and met
                   payment requirements.

Mortgage Now Did Not
Properly Oversee and Follow
Up on Quality Control Reviews
Performed

           Mortgage Now did not implement a quality control program that complied with
           HUD’s requirements. It failed to properly oversee and follow up on the quality
           control reviews performed by its quality control contractor. According to its
           quality control contractor, Mortgage Now failed to provide loan file
           documentation in a timely manner for the completion of routine quality control
           reviews. Further, it was Mortgage Now’s decision that its contractor would
           perform routine quality control reviews quarterly instead of monthly as required.



                                            9
             Mortgage Now also did not discuss the findings and conclusions of the completed
             quality control reviews with its contractor.

             Since our audit period, Mortgage Now has instituted a procedure in which it
             immediately sends the loan files to its contractor every month and consistently
             tracks the quality control reviews to ensure that it complies with HUD
             requirements concerning the frequency and timeliness of the reviews. In addition,
             the lender now has a staff member, who is more familiar with the quality control
             process, to serve as the contact for its quality control contractor.

Conclusion

             Mortgage Now did not follow HUD requirements when implementing its quality
             control program. The problems occurred because Mortgage Now disregarded
             HUD requirements and did not properly oversee its quality control contractor’s
             reviews to ensure that they met HUD requirements. Additionally, it did not
             provide loan file documentation to its contractor in a timely manner for the
             completion of routine quality control reviews. As a result, Mortgage Now
             increased the risk to the FHA insurance fund due to a lack of assurance of the
             accuracy, validity, and completeness of its loan underwriting activities.

Recommendations

             We recommend that HUD’s Deputy Assistant Secretary for Single Family
             Housing

              2A. Require Mortgage Now to develop and implement a quality control
                  program that complies with HUD requirements. Specifically, the lender
                  needs to establish a written plan with HUD’s required provisions, ensure that
                  routine quality control reviews meet HUD requirements, and review all early
                  payment defaults as required.

              2B. Review Mortgage Now’s quality control program within 9 months to
                  determine whether the required provisions have been included in the
                  lender’s written plan and quality control reviews are conducted in
                  compliance with HUD’s requirements.




                                             10
                         SCOPE AND METHODOLOGY


We performed our audit work from November 2011 through June 2012 at Mortgage Now’s main
office in Shrewsbury, NJ, and our offices located in Chicago, IL, and Columbus, OH. The audit
covered the period October 1, 2009, through September 30, 2011, and was adjusted as necessary.

To accomplish our objectives, we reviewed applicable HUD handbooks, regulations, mortgagee
letters, and other reports and policies related to the FHA mortgage insurance programs. Further,
we reviewed Mortgage Now’s electronic loan credit and closing files, quality control plan, and
quality control documentation. We contacted borrowers’ employers to confirm employment and
income data. We also reviewed the corporate roster, a list of fees, the organization chart, and
financial audits for prior years’ information. We interviewed Mortgage Now’s employees and
external quality control contractor.

Using HUD’s data maintained in Neighborhood Watch, we determined that Mortgage Now had 53
loans that were seriously delinquent or in claim status that were underwritten during the scope of
our audit. Of the 53 loans, 24 were originated to borrowers located in Region 5’s jurisdiction. Of
these 24, there were 4 that had been made current as of the beginning of the scope and were
removed from the universe. The remaining 20 loans, with mortgage amounts totaling more than
$2.5 million, were comprised of 3 streamline refinances, 2 conventional to FHA refinances, and 15
home purchase loans. We reviewed the 20 loans to determine whether they were underwritten in
compliance with HUD’s requirements. The results of our underwriting review apply only to the
loans reviewed and cannot be projected to the entire universe of loans.

For our review of Mortgage Now’s quality control program, we reviewed 100 percent of the 146
quality control reviews completed during our audit period for compliance with HUD requirements.
A third-party contractor, QCS & Associates, performed routine quality control reviews for
Mortgage Now.

We relied on information maintained in HUD’s Neighborhood Watch and Single Family Data
Warehouse systems for informational and sampling purposes only. We also relied on data
maintained in Mortgage Now’s system such as electronic loan files and payment records. Although
we did not perform a detailed assessment of the reliability of the data, we performed a minimal level
of testing and found the data to be adequately reliable for our purposes. The testing consisted of
comparing data in the electronic files to the FHA case binders, and reconciling Mortgage Now’s
payment history documentation to the servicers’ information maintained in HUD’s systems. The
audit results were based on our review of electronic and supporting hardcopy documentation
maintained by Mortgage Now.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.


                                                 11
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •      Effectiveness and efficiency of operations – Policies and procedures that
                      management has implemented to reasonably ensure that a program meets
                      its objectives.

               •      Reliability of financial reporting – Policies and procedures that
                      management has implemented to reasonably ensure that valid and reliable
                      data are obtained, maintained, and fairly disclosed in reports.

               •      Compliance with applicable laws and regulations – Policies and
                      procedures that management has implemented to reasonably ensure that
                      resource use is consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 12
Significant Deficiencies

             Based on our review, we believe that the following items are significant
             deficiencies:

             •   Mortgage Now did not comply with HUD’s underwriting requirements for
                 five FHA-insured loans (see finding 1).

             •   Mortgage Now did not follow HUD requirements when implementing its
                 quality control program (see finding 2).




                                             13
                                     APPENDIXES

Appendix A

     SCHEDULE OF FUNDS TO BE PUT TO BETTER USE

                             Recommendation         Funds to be put
                                 number              to better use
                                                          1/
                                     1A                   $555,678

                                    Total                $555,678


1/   Recommendations that funds be put to better use are estimates of amounts that could be used
     more efficiently if an Office of Inspector General (OIG) recommendation is implemented.
     These amounts include reductions in outlays, deobligation of funds, withdrawal of interest,
     costs not incurred by implementing recommended improvements, avoidance of unnecessary
     expenditures noted in preaward reviews, and any other savings that are specifically identified.




                                               14
Appendix B

           AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation                              Auditee Comments 19




19
  This response excludes 37 pages of exhibits that were not necessary for understanding Mortgage Now’s
comments.


                                                      15
Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




Comment 3




                         16
Ref to OIG Evaluation   Auditee Comments




Comment 4

Comment 5




                         17
Ref to OIG Evaluation                       Auditee Comments




Comment 6




* Property addresses were redacted for privacy reasons.




                                              18
Ref to OIG Evaluation   Auditee Comments




Comment 7




                         19
Ref to OIG Evaluation   Auditee Comments




Comment 8




                         20
                        OIG’s Evaluation of Auditee Comments

Comment 1   Mortgage Now requested that four of the five loans not be indemnified based on
            the exhibits provided. However, based on our evaluation presented below, the
            recommendation for the indemnification of these four loans will remain.

            Mortgage Now stated the borrower made 14 payments for FHA case number 264-
            0534519 before the 90-day delinquency was reported, and is currently in a
            repayment status. However, the Neighborhood Watch FHA case details reveal
            that the borrower has had an inconsistent payment history with multiple
            delinquencies since the loan closed. For instance, the loan entered delinquent
            status in August 2010, after only three mortgage payments. As soon as the loan
            was reinstated by the borrower, it re-entered delinquent status in December 2010
            for another two months.

            Mortgage Now did not provide supporting documentation to address the
            underwriting deficiency cited in the report for this loan. It improperly used the
            borrower’s overtime income, which was not expected to continue, to qualify the
            borrower for the loan. Without the overtime income of $575, the borrower’s
            monthly effective income decreased by more than 10 percent from the amount of
            $5,478 that was used to approve the loan. The Desktop Underwriter Findings
            printout for the loan provides that overtime income may be used to qualify if the
            borrower has received such income for approximately two years and there are
            reasonable prospects of continuance. However, the loan file documentation did
            not support that the overtime income was likely to continue. Therefore, this
            finding item will remain in the report.

Comment 2   We acknowledge Mortgage Now’s development of written policies and
            procedures that would address all loans going into default within the first six
            payments. Since Mortgage Now did not provide us its updated written policies
            and procedures, we were unable to confirm the changes that it has indicated.

Comment 3   We acknowledge the changes made by Mortgage Now to its quality control
            program, including hiring a new quality control company; implementing written
            policies and procedures to ensure the completion of required quality control
            reviews; and updating its quality control plan to comply with HUD’s
            requirements. However, we did not receive any documentation from Mortgage
            Now to support the changes presented in its comments.

Comment 4   We recognize the financial and regulatory challenges the economic crisis has
            placed on the industry. However, lenders are still required to exercise due
            diligence when underwriting loans for FHA insurance to ensure compliance with
            HUD requirements.

Comment 5   Mortgage Now stated it maintained adherence to easing the credit crisis by
            lending in economically challenged states like Ohio and Michigan. Additionally,



                                            21
            it indicated that the Ohio Housing Finance Administration (OHFA) Down
            Payment Assistance program placed a tremendous burden on Mortgage Now, and
            attributed 50 percent of its defaults to borrower participation in the down payment
            assistance program. During the audit, Mortgage Now informed the audit team
            that the State of Ohio required it to use the OHFA program and establish grant
            participation as a performance metric. However, Mortgage Now did not provide
            any documentation to support its assertions. The OHFA program was not
            exclusive to Mortgage Now; it was also used by other lenders in Ohio, who had
            compare ratios lower than Mortgage Now for the 2-year performance period
            reviewed. In a response to the results of a review performed by its quality control
            contractor, Mortgage Now acknowledged that it had removed a staff member for
            risky underwriting decisions.

Comment 6   Mortgage Now agreed the underwriting did not include a monthly debt of $598 in
            the debt-to-income calculation for FHA case number 262-1868669; however, it
            stated the borrower’s monthly income was slightly higher than the income used in
            underwriting the loan. Although we agree that the underwriter could have used a
            slightly higher income to qualify the borrower for the loan; however, the
            borrower’s monthly income increased by only $50. Further, the borrower’s
            weekly paystub for the period ending August 9, 2009, was questionable; the year-
            to-date wages presented was not accurate. The paystub showed the year-to-date
            wages as $62,757.99; based on our recalculation, it should have been $62,227.29.

            Mortgage Now noted compensating factors that included employment stability,
            reduction in rates from the refinance, and a principal and interest reduction that
            resulted in lowering the payment from $2,062 to $1,719. HUD Handbook 4155.1,
            paragraph 4.F.3.a states all compensating factors must be supported by
            documentation. Employment stability and interest rate reduction are not
            considered compensating factors, based on HUD Handbook 4155.1, paragraph
            4.F.3.b. Further, the borrower’s total mortgage payment increased from $2,062 to
            $2,393.

Comment 7   For FHA case number 412-6321767, Mortgage Now stated that the borrower was
            a full time employee on August 10, 2009, and also added that a monthly
            obligation of $585, which was the same as the balance owed, should have been
            excluded from the computation of the qualifying ratios for the loan.

            We disagree with Mortgage Now’s explanation for the borrower’s employment
            and income. The loan file documentation concerning the borrower being a
            permanent employee was inconsistent with statements by the borrower or his pay
            stubs. Based on an employment reverification with the borrower’s employer, we
            determined the permanent status only meant that the borrower had completed his
            probationary period and was no longer a temporary employee. Further, the
            borrower’s pay stub for August 14 through August 27, 2009, showed that the
            borrower worked approximately 60 hours for a 2-week period. Our recalculation
            of the borrower’s income, based on the year-to-date earnings, revealed the



                                            22
            borrower’s monthly income was approximately $661 ($5,200.71 / 7.87 months),
            which is a difference of $1,159 from the amount used by underwriter to qualify
            the borrowers for the loan ($1,820 - $661).

            We also disagree with Mortgage Now’s assessment of the borrowers’ liabilities.
            The borrowers’ credit report included a monthly payment of $585 for a revolving
            line of credit account in the credit report, which was also in the automated
            underwriting analysis. According to the Desktop Underwriter Findings printout,
            the underwriter had already excluded installment debt with less than 10 months
            remaining and less than or equal to a $100 monthly payments from the qualifying
            ratio calculation. Since the monthly payment of $585 was not less than $100, it
            was included. Further, HUD Handbook 4155.1, paragraph 4.C.4.b states that
            debts lasting less than ten months must be included if the amount of the debt will
            affect the borrower’s ability to pay the mortgage during the months immediately
            after loan closing, especially if the borrower will have limited or no cash assets
            after loan closing. The Mortgage Credit Analysis Worksheet indicated the
            borrowers had cash reserves totaling $521.

            The borrowers’ recomputed total fixed payment-to-income (back) ratio, which
            includes the reduced income of $661 and the monthly debt of $585 for the
            revolving account, was 80 percent.

Comment 8   Mortgage Now provided a cash flow analysis for FHA case number 264-0336553,
            in which it showed its calculation of the borrower’s income. Mortgage Now
            stated that based on its calculations, the borrower’s income was actually greater
            than the income of $4,500 used by the underwriter. Additionally, it presented that
            the borrower had $5,419.50 in cash flow income from a corporation. We disagree
            with both amounts presented by Mortgage Now. The borrower’s 2008 W-2
            wages totaling $15,748 resulted in a monthly income of $1,312, which was less
            than than the $4,500 calculated by the lender.

            Further, the cash flow analysis exhibit provided does not support the borrower’s
            monthly cash flow income of $5,419.50. The cash flow analysis appears to be a
            screen print from a software program that calculates self-employed income by
            inputting tax return line items into the software. Since Mortgage Now did not
            provide sufficient documentation to support its calculation of the borrower’s
            monthly income of $4,500 or the cash flow of $5,419.50, this finding item will
            remain in the audit report as cited.




                                            23
Appendix C
                                 CASE NARRATIVES

                 Case Narrative – FHA Case Number 262-1868669
Mortgage amount: $302,706

Date of loan closing: September 11, 2009

Status as of July 25, 2012: First legal action to commence foreclosure

Payments before first default reported: Five

Unpaid principal balance: $301,034

Underwriting Deficiencies:
   • The loan file lacked supporting documentation for debt omission.

Summary:

Excluded Liability Not Supported
Mortgage Now did not include all required recurring obligations to qualify the borrowers for the
loan. Specifically, it omitted a monthly installment debt of $598 from the underwriting analysis
for the conventional to FHA refinance loan. The loan file contained no supporting
documentation for the omission of the debt. Considering the omitted monthly liability of $598,
the borrowers’ total fixed payment-to-income debt ratio would increase from 42.31 to 48.17
percent.

Desktop Underwriter approved the loan with $1,929 in monthly debt. However, we identified
one account with a balance totaling $16,932 that was not entered into Desktop Underwriter. The
balance was manually removed from the credit and liabilities section of the underwriter findings
report. The initial loan application provided by Mortgage Now included the debt in the liabilities
section. Additionally, the borrower’s most recent credit report indicated that the debt was
current, and the bankruptcy documentation in the loan file showed that the debt was not included
under the bankruptcy.

The Desktop Underwriter findings identified a debt to Oxford Bank and described it as an
account that was omitted from the underwriting analysis during liability reconciliation.
According to the underwriting analysis document, for each liability, the lender was required to
provide documentation that supported the omission of the liability.




                                               24
                 Case Narrative – FHA Case Number 264-0534519
Mortgage amount: $161,426

Date of loan closing: March 26, 2010

Status as of July 25, 2012: Delinquent

Payments before first default reported: 14

Unpaid principal balance: $156,757

Underwriting Deficiencies:
   • Overtime income was not effective income.

Summary:

Overtime Income Not Effective Income
Mortgage Now improperly used the borrower’s overtime income, which was not expected to
continue, to qualify the borrower for the loan. Therefore, in excluding this income, the
borrower’s total fixed payment-to-effective income ratio (back ratio) increased from 49 to 54
percent. The borrower’s income decreased by more than 10 percent from the amount reported on
the loan application. The verification of employment in the case file indicated that the overtime
or bonus income the borrower had received in prior years was not likely to continue. There was
a letter in the loan file explaining the variation in hours staff worked during January and
February; however, there was no explanation of why overtime hours could still be used. The pay
stubs indicated that the borrower did not work overtime for the first 2 months of the year. When
we verified income with the employer, it indicated that at that time, overtime was not expected to
continue and that for the full year of 2010 (9 months after the loan had closed), the borrower
earned only $53.78 in overtime.

The lender entered $4,903 base income and $575 overtime into the automated underwriting
system. The Desktop Underwriter findings stated that overtime or bonus income from the
application was used to approve the loan. Both may be used to qualify the borrower if the
borrower had received such income for approximately 2 years and it was likely to continue.
HUD Handbook 4155.1, paragraph 4.D.2.b, states that overtime and bonus income can be used to
qualify the borrower if the borrower had received this income for the past 2 years and it would
likely continue. Therefore, if the borrower’s employment verification stated that the overtime
and bonus income were unlikely to continue, it should not have been used to qualify the
borrower for the loan.




                                               25
                 Case Narrative – FHA Case Number 412-6321767

Mortgage amount: $122,637

Date of loan closing: October 5, 2009

Status as of July 25, 2012: First legal action to commence foreclosure

Payments before first default reported: 10

Unpaid principal balance: $120,735

Underwriting Deficiencies:
   • Part-time income was incorrectly used as full time.

Summary:

Part-Time Income Counted as Full-Time Income
Mortgage Now incorrectly used the borrower’s part-time income as full-time employment
income to qualify the borrower for the loan. The loan file did not contain sufficient
documentation to support the borrower’s income of $1,820, which was based on a 40-hour work
week. The lender relied upon written statements from the borrower and an administrative staff
member at the borrower’s employer that the borrower worked full time, 40 hours per week.
However, we determined that the borrower did not work 40 hours a week because he was a part-
time employee. Therefore, using the borrower’s year-to-date earnings, we recalculated his
income as $661, a difference of approximately $1,159, thus increasing the borrower’s total fixed
payment-to-income ratio to 80 percent.

HUD requires a lender to establish a borrower’s income and the likelihood of its continuance to
determine a borrower’s capacity to repay the mortgage debt. Additionally, HUD Handbook
4155.1, paragraph 4.D.1.a, states that income may not be used in calculating the borrower’s
income ratios if it comes from any source that cannot be verified, is not stable, or will not
continue.




                                               26
                  Case Narrative – FHA Case Number 412-6478082
Mortgage amount: $122,637

Date of loan closing: October 30, 2009

Status as of July 25, 2012: Ineligible for loss mitigation

Payments before first default reported: Nine

Unpaid principal balance: $121,516

Underwriting Deficiencies:
   • Self-employment income was not stable and effective.
   • Excluded liability was not supported.

Summary:

Self-Employment Income Not Stable and Effective
Mortgage Now improperly used the borrower’s self-employment income, which was not
considered stable and effective. The borrower’s income was from a business that had been open
less than a year before the loan closed. Therefore, this business income could not be considered
as effective. The borrower provided a personal statement, in which her name was misspelled,
that described the steps she undertook to start her home childcare business, and she explained the
timing of the classes the county required her to take. However, she did not have her first client
until December 2008, which was only 11 months before the loan closed on October 30, 2009.
Further, there was no documentation in the loan file to support that the training classes she took,
along with her 11-month self-employment, would have added up to 1 year. Further, the loan file
contained conflicting information regarding when the business started. The income and expense
statement that was used to support the business’s income and existence went only up to
September 30, 2009. Desktop Underwriter approved the loan with $3,990 in income, of which
$3,116 was self-employment income.

HUD Handbook 4155.1, paragraph 4.D.4.c, states that income from self-employment is
considered stable and effective if the borrower has been self-employed for 2 or more years. Due
to the high probability of failure during the first few years of a business, the requirements are
necessary for borrowers who have been self-employed for less than 2 years. If the period of self-
employment is less than 1 year, the income from the borrower may not be considered effective
income.

Excluded Liability Not Supported
Mortgage Now did not include all required recurring obligations to qualify the borrower for the
loan. Specifically, it omitted the borrower’s monthly car payment of $278 from the underwriting
debt analysis without sufficient documentation to support the business’s use of the car. Desktop
Underwriter approved the loan with $522 in monthly debt. However, we identified one account
with a balance totaling $278 that was not entered into Desktop Underwriter. The balance was


                                                 27
manually removed from the credit and liabilities section of the underwriter findings report. The
underwriter findings section of the report contained an annotation referring to the income
statement in the file. The income statement indicated that for the first three quarters of the year,
the borrower had $1,850 in automobile expenses, with no further documentation or support that
the automobile expenses were related to the liability payment appearing on the credit report that
had been removed for underwriting.




                                                 28
                  Case Narrative – FHA Case Number 264-0336553
Mortgage amount: $147,283

Date of loan closing: October 9, 2009

Status as of July 25, 2012: Reinstated by borrower without loss mitigation claim

Payments before first default reported: Four

Unpaid principal balance: $141,894

Underwriting Deficiencies:
   • A drawdown of the borrower’s business retained earnings was improperly used instead of
      net income to calculate the borrower’s monthly income.

Summary:

Retained Earnings Improperly Used as Income
Mortgage Now improperly used a drawdown from retained earnings of the borrower’s business
instead of net income to calculate the monthly income. Desktop Underwriter approved the loan
using the borrower’s $4,500 base employment income. The borrower provided 2 years of tax
returns and tax return transcripts indicating that he was the business’s owner along with Internal
Revenue Service (IRS) forms W-2. There was no documentation in the loan file showing how
the underwriter calculated the borrower’s monthly income of $4,500; thus, this amount was not
supported. Further, on IRS forms 1120 (Corporate Tax Return), the borrower reported a loss of
$23,724 in 2007 and no taxable income in 2008. Also, after the borrower drew down the funds
from retained earnings, the borrower’s equity in the business was $0.

HUD Handbook 4155.1, paragraph 4.D.4.g, requires that for self-employed borrowers, the
underwriter is to analyze the business’s financial strength to determine whether the business is
likely to generate income for the borrower’s needs. The underwriter must analyze the business’s
strength including the source of the business’s income. Further paragraph 4.D.6.c of the
handbook indicates that cash withdrawals such as retained earnings may have a severely negative
impact on the business’s ability to continue operating. Using this guidance, the underwriter
should have not used dividends from the borrower’s business since the withdrawal depleted his
business’s retained earnings, thus hindering its ability to operate.

Further, when we attempted to support the information on the borrower’s tax return using the
2007 and 2008 IRS forms 1040, the income did not agree with the $4,500 entered into Desktop
Underwriter. For 2008, the borrower’s adjusted gross income was $67,917, but this amount was
comprised of the $60,000 in retained earnings (dividends) drawdowns from the business, which
was not effective income. Both of the tax returns contained notations in these areas.
Additionally, the 2007 tax return showed adjusted gross income of $61,140; again this was
comprised of a $60,000 retained earnings drawdown from the business, which was not effective
income. HUD Handbook 4155.1, paragraph 4.D.5.b, states that when calculating IRS form


                                                29
1040, taxable and nontaxable dividends may be added back to income only if paid for the last 2
years and expected to continue. If the liquid-bearing asset will be liquidated as a source of the
cash investment, the lender must adjust the amount. Because the retained earnings from the
business were reduced to $0 after the last withdrawal, this income could not be used. When we
recalculated the borrower’s net income using IRS forms 1040 for 2007 and 2008, we determined
his monthly income to be approximately $3,442 per month. As a result, the borrower’s total
fixed payment-to-income ratio increased from 47 to 61 percent.




                                               30
